                UNITED STATES ATTORNEY’S OFFICE
                   EASTERN DISTRICT OF MISSOURI
______________________________________________________________________________
October 9, 2012
For Immediate Release

  LOCAL MAN PLEADS GUILTY TO FRAUDULENTLY
     RECEIVING SOCIAL SECURITY BENEFITS
        St. Louis, MO - Robert Brauker, who formerly worked as an attorney for the Social
Security Administration adjudicating claims while receiving disability benefits, pled guilty to
defrauding the Social Security Administration. In order to further decrease the likelihood of
detection, Brauker admitted using different addresses for his employment and for the receipt of
his Supplemental Security Income payments.

        According to court documents, Brauker was initially approved for disability benefits in
1993 due to significant visual impairments. As his receipt of benefits was entirely income based,
he was required to notify the Social Security Administration when he received earned income or
received the benefit of gifts or other household income. In 2003, Brauker earned income, but did
not report the income to the Social Security Administration. In August 2005, he went to law
school at Michigan State University, graduating in 2008. In March 2010, he applied for
employment as an Attorney-Adviser with the Social Security Administration in St. Louis.
According to his application, after graduating from law school, he worked as a sole practitioner
in the areas of veteran disability benefit appeals, compliance and employment issues for
corporate clients, and litigation, working approximately 20 hours a week. He did not report
these earnings, his additional training, or his employment to the Social Security Administration
as needed for the agency to make a correct disability benefit calculation.

       Brauker, 37, St. Louis, 63109, pled guilty to two felony counts of theft of government
property before United States District Judge Carol E. Jackson. Sentencing has been set for
January 15, 2013.

        Each charge carries a maximum penalty of 10 years in prison and/or fines up to
$250,000.
In determining the actual sentences, a Judge is required to consider the U.S. Sentencing
Guidelines, which provide recommended sentencing ranges.

       This case was investigated by the Social Security Administration Office of Inspector
General. Assistant United States Attorney Tracy Berry is handling the case for the U.S.
Attorney’s Office.

                                               ###
IF YOU HAVE QUESTIONS, PLEASE CONTACT PUBLIC INFORMATION OFFICER
             JAN DILTZ AT jan.diltz@usdoj.gov or 314-539-7719 .
